Letter to Congress, “NASA’s Compliance with Federal Export Control Laws and Risks
Associated with the Illegal Transfer or Theft of Sensitive Technologies” (Report No. ML-07-010,
July 20, 2007)

The NASA Office of Inspector General (OIG) issued a letter to members of Congress in response
to a requirement in Public Law 106-391, “National Aeronautics and Space Administration
Authorization Act of 2000.” The Law requires that the NASA OIG conduct an annual audit of
NASA policies and procedures related to the export of sensitive technologies and the transfer of
scientific and technical information to assess the extent to which NASA is complying with Federal
export control laws. In addition, Conference Report 108-401, which accompanied H.R. 2673, the
“Consolidated Appropriations Act, 2004,” directed that the NASA OIG report annually on the
risks associated with the illegal transfer or theft of sensitive technologies.

The letter contained the results of audits and investigations completed in FY 2006 and FY 2007 to
date, as well as preliminary results of ongoing audits, concerning NASA’s export controls and the
transfer of scientific and technical information. OIG audits and investigations reported significant
information technology (IT) internal control weaknesses and noncompliance with established
procedures and regulations, which could place scientific and technical information at risk. One of the
systemic themes visible during most of our work is that while Centers or other affected organizations
are responsive to dealing with vulnerabilities or intrusions, those responses frequently are not
centralized, coordinated, or communicated across the Agency. The NASA Administrator and
Deputy Administrator have increased their attention on IT security issues over the past fiscal year,
and the OIG continues to work closely with the NASA Chief Information Officer to ensure that IT
security controls are in place and functioning as intended.

Over the next few years, we will devote considerable attention toward transition issues, which
include the disposition of Space Shuttle Program assets and the development of new technologies.
A key aspect of our work will be to ensure that controls are in place to provide adequate assurance
that sensitive technologies of the Space Shuttle Program and next-generation efforts are protected.


The letter contains NASA Information Technology/Internal Systems Data as well as Investigative
Records information that is not routinely released under the Freedom of Information Act (FOIA).
To submit a FOIA request, see the online guide.
